WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5495

 

Hose Yeylle | Armandina Acosta-Leon, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

Please cheek the appropriate e box:

© Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

Signature: ZEEE,

Date: 9/27/21 _

(Type or print) Name Walter J. Harvey a OY
© wr. © Ms. On Mrs. O Miss

 

   
  

 

Firm School Board of Miami- Dade County Attorney's 0 Office

Address 1450 NE. 2nd Ave., Suite 430 a

City & State Miami, Florida — _ : _ - ; _ | Zip 3132
Phone 305-9951 304 - : | Email walter.harvey@dadeschools.net

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

se Yeyille, pro se
is M. Garcia, Esquire

 
